CERTIFICATE OF SERVICE
NO. TBD
David Hegland et al.
Petitioneds)
v.
Nicola T. Hanna
Respondents)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the David
Hegland et al. Petition for Writ of Certiorari, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Grace Y. Park
U.S. Dept of Justice
300 North Los Angeles St.
Suite 7516
Los Angeles, CA 90012
(213) 894-3551
Counsel for Nicola T. Hanna

Jeffrey B. Wall
Department of Justice
950 Pennsylvania Avenue, N. W.
Room 5616
Washington, DC 20530-0001
Counsel for United States

^<33^-—
Lucas'DeDeus

October 16, 2020
SCP Tracking: Meide-4446-1 Hendricks Avenue-Cover White

